      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                         Washington, D.C. 20201




June 27, 2011

TO:             Donald M. Berwick, M.D.
                Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Lori S. Pilcher/
                Acting Deputy Inspector General for Audit Services


SUBJECT:        Review of Florida’s Children’s Health Insurance Program Experience Adjustment
                and Refund Submission Reports (A-04-10-06123)


Attached, for your information, is an advance copy of our final report on Florida’s Children’s
Health Insurance Program experience adjustment reports and subsequent refunds during the
period October 2003 through September 2007. We will issue this report to the Florida Agency
for Health Care Administration within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov
or John T. Drake, Sr., Acting Regional Inspector General for Audit Services, Region IV, at
(404) 562-7755 or through email at John.Drake@oig.hhs.gov. Please refer to report number
A-04-10-06123.

Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL


                                                                         Office of Audit Services, Region IV
                                                                         61 Forsyth Street, SW, Suite 3T41
                                                                         Atlanta, GA 30303



June 29, 2011

Report Number: A-04-10-06123

Ms. Elizabeth Dudek
Secretary
Agency for Health Care Administration
2727 Mahan Drive, MS #1
Tallahassee, FL 32308

Dear Ms. Dudek:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Florida’s Children’s Health Insurance Program
Experience Adjustment and Refund Submission Reports. We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact Andrew A.
Funtal, Audit Manager, at (404) 562-7762 or through email at Andrew.Funtal@oig.hhs.gov. Please
refer to report number A-04-10-06123 in all correspondence.

                                             Sincerely,



                                             /John T. Drake, Sr./
                                             Acting Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Elizabeth Dudek


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




  REVIEW OF FLORIDA’S CHILDREN’S
   HEALTH INSURANCE PROGRAM
EXPERIENCE ADJUSTMENT AND REFUND
       SUBMISSION REPORTS




                         Daniel R. Levinson
                          Inspector General

                             June 2011
                           A-04-10-06123
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XXI of the Social Security Act, the State Children’s Health Insurance Program
(SCHIP) provides free or affordable health care coverage to uninsured children in families whose
incomes are too high to qualify for Medicaid but too low to afford private health care coverage.
The Federal and State Governments fund and administer SCHIP. The Centers for Medicare
& Medicaid Services (CMS) administers the program at the Federal level. To participate in the
program, a State must receive CMS’s approval of its State plan. The State plan is a
comprehensive document that defines how each State will operate its program, including
program administration, eligibility criteria, service coverage, and provider reimbursement.

The Florida Agency for Health Care Administration (State agency) operates SCHIP in Florida.
The State agency contracts with Florida Healthy Kids Corporation (FHKC) to provide health
insurance to families not eligible for Medicaid. During our audit period (October 2003 through
September 2007), FHKC entered into 27 multiyear medical service agreements (service
agreements) with 11 insurers to provide comprehensive health care services) (services) to
eligible SCHIP participants in exchange for per member, per month capitated payments
(premiums). Florida statutes require insurers to spend a minimum of 85 percent of total
premiums on medical services. This requirement is referred to as the minimum medical loss
ratio (MLR).

Thirteen of the twenty-seven FHKC multiyear service agreements contained an MLR refund and
reporting provision called the experience adjustment provision. The experience adjustment
provision requires insurers to file an annual report (experience adjustment report) in which they
calculate whether they have met the 85-percent MLR and determine the appropriate refund, if
any. These 13 service agreements resulted in the submission of 22 experience adjustment reports
during our audit period.

An insurer calculates its minimum MLR by multiplying the total premiums that it receives from
FHKC by 85 percent and comparing that amount with its actual total expenses for medical
services. If an insurer’s total medical expenses are less than 85 percent of its total premiums
received, it must refund 50 percent of the shortfall to FHKC. (See Appendix A for an example
of a refund calculation.)

For the 14 remaining service agreements with no experience adjustment provision, the insurers
hired an independent actuary to review the proposed premiums and certify that they met the
85-percent minimum MLR. FHKC considers the actuarial certification to be evidence of
compliance with the 85-percent minimum MLR provision.

OBJECTIVE

Our objective was to determine whether the State agency fully recouped the Federal share of the
SCHIP experience adjustment refunds due.




                                                i
SUMMARY OF FINDINGS

Overall, the State agency recouped approximately $10.8 million in SCHIP refunds due from 22
experience adjustment reports that insurers submitted during our audit period. Nine experience
adjustment reports contained no errors relating to premium payments received from FHKC.
However, 13 experience adjustment reports incorrectly reported premium payments from FHKC.
Of these 13 incorrect reports, 8 resulted in underpaid refunds, 1 resulted in an overpaid refund,
and 4 contained errors having no effect on the refund. As a result, FHKC did not receive
appropriate refunds, and the Federal Government was not credited with refunds totaling
$3,107,623 ($2,030,015 Federal share). These underpaid refunds occurred primarily because the
State agency and FHKC did not have policies and procedures requiring FHKC personnel to
review experience adjustment reports and reconcile them to supporting records.

RECOMMENDATIONS

We recommend that the State agency:

   •   credit the Federal Government $2,030,015 for its share of underpaid refunds and

   •   develop and implement oversight procedures to ensure that FHKC recoups required
       refunds and reconciles experience adjustment reports to accounting records and
       supporting documents.

AUDITEE COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations.
The State agency stated that it recouped $2,005,219 of the $2,030,015 Federal portion of
underpaid refunds and was developing improved procedures for monitoring the experience
adjustment process to ensure appropriate reporting, documentation, and reimbursement. The
State agency’s and FHKC’s comments are included in their entirety as Appendix D.




                                               ii
                                                 TABLE OF CONTENTS
                                                                                                                                Page

INTRODUCTION .............................................................................................................. 1

          BACKGROUND ......................................................................................................... 1
              Florida’s State Children’s Health Insurance Program ..................................... 1
              Service Agreement Experience Adjustment Provision .................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................... 2
               Objective .......................................................................................................... 2
               Scope ............................................................................................ 2
               Methodology .................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ....................................................................... 3

          FEDERAL AND STATE REQUIREMENTS ...................................................... 4
               Federal Requirements ..................................................................................... 4
               State Requirements .......................................................................................... 4

          INCORRECT EXPERIENCE ADJUSTMENT REPORTS....................................... 5
               Incorrect Experience Adjustment Reports With Underpaid or
                 Overpaid Refunds ........................................................................................ 5
               Incorrect Experience Adjustment Reports With No Effect on Refund............ 5

          POLICIES AND PROCEDURES DID NOT REQUIRE RECONCILIATION ........ 5

          RECOMMENDATIONS ............................................................................................. 6

          AUDITEE COMMENTS............................................................................................. 6

APPENDIXES

      A: EXAMPLE OF A REFUND CALCULATION

      B: SUMMARY OF UNDERPAID REFUNDS BY INSURER

      C: SUMMARY OF UNDERPAID REFUNDS BY RESULTS

      D: AUDITEE COMMENTS




                                                                   iii
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XXI of the Social Security Act (the Act), the State Children’s Health Insurance
Program (SCHIP) 1 provides free or affordable health care coverage to uninsured children in
families whose incomes are too high to qualify for Medicaid but too low to afford private health
care coverage.

Federal and State Governments fund and administer SCHIP. The Centers for Medicare
& Medicaid Services (CMS) administers the program at the Federal level. To participate in the
program, a State must receive CMS’s approval of its State plan. The State plan is a
comprehensive document that defines how each State will operate its program, including
program administration, eligibility criteria, service coverage, and provider reimbursement.

The Federal medical assistance percentages (FMAP) are used to determine the amount of Federal
financial participation (FFP), or matching funds, for State expenditures in Medicaid and other
social services. The Federal Government uses enhanced FMAPs to determine the amount of FFP
for State expenditures in SCHIP. The formula for calculating the enhanced FMAP is found
under section 2105(b) of the Act. In Florida, the enhanced FMAP ranged from 71.13 percent to
71.25 percent during our audit period.

Florida’s State Children’s Health Insurance Program

The Florida Agency for Health Care Administration (State agency) operates SCHIP in Florida.
The State agency contracts with Florida Healthy Kids Corporation 2 (FHKC) to provide health
insurance to children eligible for SCHIP.

During our audit period (October 2003 through September 2007), FHKC entered into 27
multiyear medical service agreements (service agreements) with 11 insurers to provide
comprehensive health care services (services) to eligible SCHIP participants in exchange for per
member, per month capitated payments (premiums). Florida statute (§ 624.91(5)(b)(10))
requires insurers contracting with FHKC to spend a minimum of 85 percent of total premiums on
medical services. This requirement is referred to as the minimum medical loss ratio (MLR). 3




1
 This program was renamed the Children’s Health Insurance Program as of February 4, 2009 (P.L. 111-3, Feb. 4,
2009).

2
 FHKC is a not-for-profit corporation that was created by the Florida legislature in 1990 to provide comprehensive
health insurance coverage to school-aged children.

3
  The actual MLR is determined by dividing the medical expenses that the insurer pays by the total premiums that it
receives. (See Appendix A for an example of a refund calculation.)



                                                         1
Service Agreement Experience Adjustment Provision

Thirteen of the twenty-seven FHKC multiyear service agreements contained an MLR refund and
reporting provision called the experience adjustment provision. The experience adjustment
provision requires insurers to file an annual report (experience adjustment report) in which they
calculate whether they have met the 85-percent MLR and determine the appropriate refund, if
any. An insurer calculates its minimum MLR by multiplying the total premiums that it received
from FHKC by 85 percent and comparing that amount with its actual total expenses for medical
services. If an insurer’s total medical expenses are less than 85 percent of its total premiums
received, it must refund 50 percent of the shortfall to FHKC. (See Appendix A for an example
of a refund calculation.) These 13 service agreements resulted in the submission of 22
experience adjustment reports during our audit period.

For the 14 remaining service agreements with no experience adjustment provision, the insurers
hired an independent actuary to review the proposed premiums and certify that they met the
85-percent minimum MLR. FHKC considers the actuarial certification to be evidence of
compliance with the 85-percent minimum MLR provision.

Every quarter the State agency reports its SCHIP expenditures to CMS for Federal
reimbursement on Form CMS-21. Any refund due the Federal Government reduces the
expenditure amount reported on Form CMS-21.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency fully recouped the Federal share of the
SCHIP experience adjustment refunds due.

Scope

Our audit covered the period October 2003 through September 2007. During that period,
7 insurers submitted a total of 22 experience adjustment reports relating to 13 SCHIP service
agreements with FHKC. We limited our review of State agency and FHKC internal controls to
those applicable to the submission and review of the experience adjustment reports because our
objective did not require an understanding of all internal controls over the SCHIP program.

We conducted our fieldwork from February through November 2010. Our fieldwork included
contacting the State agency, FHKC (both in Tallahassee, Florida), and one insurer. We visited
the insurer because of the material nature of our findings.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal and State laws, regulations, and guidance;



                                                2
   •   interviewed State agency and FHKC officials to identify the policies and procedures
       related to SCHIP and to gain an understanding of how SCHIP funds are transferred from
       the State agency to insurers;

   •   reviewed previous audits of the State agency;

   •   reviewed FHKC’s procedures for disbursing, collecting, and reporting SCHIP funds;

   •   reviewed the 27 SCHIP service agreements to determine whether those service
       agreements contained an experience adjustment provision requiring the submission of an
       experience adjustment report and subsequent refunds;

   •   reviewed 22 experience adjustment reports, applicable premiums paid, and FHKC and
       insurer supporting documentation;

   •   interviewed FHKC officials to (1) determine whether the premiums paid to the plans
       were properly reported on the experience adjustment reports and (2) determine whether
       the contractually required experience adjustment reports were filed during the audit
       period;

   •   met with one insurer (insurer #2) and requested that it provide:

           o an explanation of its revised experience adjustment reports,

           o support for the medical and prescription expenses on the experience adjustment
             reports, and

           o verification that payments were made to unrelated parties;

   •   calculated and validated with FHKC the underpaid and overpaid refunds; and

   •   discussed the results of our review with the State agency on November 22, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Overall, the State agency recouped approximately $10.8 million in SCHIP refunds due from 22
experience adjustment reports that insurers submitted during our audit period. Nine experience
adjustment reports contained no errors relating to premium payments received from FHKC.
However, 13 experience adjustment reports incorrectly reported premium payments from FHKC.
Of these 13 incorrect reports, 8 resulted in underpaid refunds, 1 resulted in an overpaid refund,


                                                3
and 4 contained errors having no effect on the refund. As a result, FHKC did not receive
appropriate refunds, and the Federal Government was not credited with refunds totaling
$3,107,623 ($2,030,015 Federal share). These underpaid refunds occurred primarily because the
State agency and FHKC did not have policies and procedures requiring FHKC personnel to
review experience adjustment reports and reconcile them to supporting records.

FEDERAL AND STATE REQUIREMENTS

Federal Requirements

Federal regulations (45 CFR §§ 92.22(a) and (b)) state that grant funds may be used only for
allowable costs of grantees, subgrantees, and cost-type contractors. Allowable costs are
determined in accordance with the cost principles applicable to the organization incurring the
costs. For a State Government, the cost principles in Office of Management and Budget Circular
A-87 (2 CFR part 225) are applicable. Section C.4.a of Appendix A in 2 CFR part 225 states
that, to the extent applicable, “credits accruing to or received by the governmental unit relate to
allowable costs, they shall be credited to the Federal award either as a cost reduction or cash
refund, as appropriate.” Section C.4.a adds that “applicable credits refer to those receipts or
reduction of expenditure-type transactions that offset or reduce expense items allocable to
Federal awards as direct or indirect costs.”

Pursuant to 45 CFR § 92.40(a), “Grantees are responsible for managing the day-to-day
operations of grant and subgrant supported activities. Grantees must monitor grant and subgrant
supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function
or activity.”

Furthermore, section 2105(e) of the Act provides that “[t]he Secretary [of Health & Human
Services] may make payments under this section for each quarter on the basis of advance
estimates of expenditures submitted by the State and such other investigation as the Secretary
may find necessary, and may reduce or increase the payments as necessary to adjust for any
overpayment or underpayment for prior quarters.” Section 2105(b) of the Act states that “the
‘enhanced FMAP,’ for a State for a fiscal year, is equal to the Federal medical assistance
percentage … for the State increased by a number of percentage points equal to 30 percent of the
number of percentage points by which (1) such Federal medical assistance percentage for the
State is less than (2) 100 percent; but in no case shall the enhanced FMAP for a State exceed
85 percent.”

State Requirements

Section 10.3 of the Florida State plan states that “the [S]tate assures that it will comply with all
applicable Federal laws and regulations, including but not limited to the Federal grant
requirements and Federal reporting requirements.”

Florida Statute 624.91(5)(b)10 authorizes FHKC to contract with insurers for the provision of
comprehensive insurance coverage to participants. The statute establishes the maximum
administrative cost for an FHKC contract at 15 percent and the minimum MLR at 85 percent.


                                                  4
INCORRECT EXPERIENCE ADJUSTMENT REPORTS

Overall, the State agency recouped approximately $10.8 million in SCHIP refunds due from 22
experience adjustment reports that insurers submitted during our audit period. Nine reports
contained no errors relating to premium payments received from FHKC, but 13 contained
incorrect totals. Of these 13 incorrect reports, 8 resulted in underpaid refunds, 1 resulted in an
overpaid refund, and 4 contained errors having no effect on the refund. As a result, FHKC did
not receive appropriate refunds, and the Federal Government was not credited with refunds
totaling $3,107,623 ($2,030,015 Federal share). (See Appendix B.)

Incorrect Experience Adjustment Reports With Underpaid or Overpaid Refunds

Nine incorrect experience adjustment reports resulted in underpaid or overpaid refunds:

   •   In their calculations for eight experience adjustment reports, the insurers understated the
       total premiums that FHKC paid. Using a lower total for premiums paid resulted in the
       insurers reporting an understated minimum MLR amount. This understatement reduced the
       difference between the minimum MLR amount and the insurers’ medical services expense
       total, thus incorrectly decreasing the refund due FHKC. As a result, the insurers underpaid
       $3,119,329 ($2,037,206 Federal share) in refunds to FHKC. (See Appendix B.)

   •   In its calculations for one experience adjustment report, the insurer overstated the total
       premiums that FHKC paid. Using the higher total for premiums paid overstated the
       minimum MLR amount by $23,412. As a result, the insurer overpaid $11,706 ($7,191
       Federal share) in refunds to FHKC. (See Appendixes B and C.)

Incorrect Experience Adjustment Reports With No Effect on Refund

Four incorrect experience adjustment reports had no effect on the refund:

   •   In their calculations for three experience adjustment reports, the insurers understated the
       total premiums that FHKC paid. However, the insurers incurred and reported enough
       medical expenses to offset the understatement. As a result, the insurers refunded the
       correct amount to FHKC. (See Appendix C.)

   •   In its calculations for one experience adjustment report, the insurer overstated the total
       premiums that FHKC paid. As a result, the insurer miscalculated the minimum MLR
       amount. However, the error did not affect the refund due FHKC because the insurer’s
       total medical expenses remained above the 85-percent minimum MLR amount.

POLICIES AND PROCEDURES DID NOT REQUIRE RECONCILIATION

The underpaid refunds occurred primarily because the State agency and FHKC did not have
policies and procedures requiring that the premiums reported on the experience adjustment
reports be reviewed and reconciled to supporting records. The State agency said that it had not



                                                 5
reconciled the experience adjustment reports to the FHKC accounting records and supporting
documents before our audit.

RECOMMENDATIONS

We recommend that the State agency:

   •   credit the Federal Government $2,030,015 for its share of underpaid refunds and

   •   develop and implement oversight procedures to ensure that FHKC recoups required
       refunds and reconciles experience adjustment reports to accounting records and
       supporting documents.

AUDITEE COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations.
The State agency stated that it recouped $2,005,219 of the $2,030,015 Federal portion of
underpaid refunds and was developing improved procedures for monitoring the experience
adjustment process to ensure appropriate reporting, documentation, and reimbursement. The
State agency’s and FHKC’s comments are included in their entirety as Appendix D.




                                               6
APPENDIXES
        APPENDIX A: EXAMPLE OF A REFUND CALCULATION

A. Total premiums paid during the year                         $10,000,000
B. Medical loss ratio (MLR) amount (85 percent of line A)        8,500,000
C. Actual medical expenses incurred during the year              8,000,000
D. Difference between MLR amount and actual medical expenses
   (Subtract line C from line B)                                  500,000
E. Refund due Florida Healthy Kids Corporation (FHKC)
                                                                 $250,000
   (50 percent of line D)
    APPENDIX B: SUMMARY OF UNDERPAID REFUNDS BY INSURER

                Period    (Over)/Under     Refund Over/          Net
                            Reported       (Under) Paid       Underpaid
                            Premium                            Refund
Insurer #1    2006–2007          $9,526            ($4,048)
                                                                  $4,048
Insurer #2    2003–2004       4,338,497      (1,927,454)
Insurer #2    2004–2005      19,492,829        (878,898)
Insurer #2    2005–2006       4,931,303                0
                                                               2,806,352
Insurer #3    2003–2004         556,748            (71,850)
Insurer #3    2004–2005         439,723           (186,882)
Insurer #3    2005–2006           2,243               (953)
                                                                 259,685
Insurer #4    2003–2004       (466,692)                   0
Insurer #4    2004–2005         113,459                   0
Insurer #4    2005–2006          24,577            (10,446)
Insurer #4    2006–2007         189,957                   0
                                                                  10,446
Insurer #5    2003–2004          91,291            (38,798)
Insurer #5    2005–2006        (27,544)              11,706
                                                                 $27,092
                                          Total               $3,107,623
          APPENDIX C: SUMMARY OF UNDERPAID REFUNDS BY RESULTS

              Incorrect Experience Adjustment Reports With an Effect (Table 1)

                           Period        (Over)/Under       (Underpaid)           Total         Federal
                                           Reported          / Overpaid                         Share of
                                           Premium             Refund                            Total
    Underpayments
       Insurer #1        2006–2007              $9,526           ($4,048)
       Insurer #2        2003–2004           4,338,497        (1,927,454)
       Insurer #2        2004–2005          19,492,829          (878,898)
       Insurer #3        2003–2004             556,748           (71,850)
       Insurer #3        2004–2005             439,723          (186,882)
       Insurer #3        2005–2006               2,243              (953)
       Insurer #4        2005–2006              24,577           (10,446)
       Insurer #5        2003–2004              91,291           (38,798)
                                                                               $3,119,329      $2,037,206
    Overpayments
       Insurer #5        2005–2006              (27,544)            11,706
                                                                                (11,706) 1         (7,191)
                                               Total underpaid refund          $3,107,623      $2,030,015

              Incorrect Experience Adjustment Reports With No Effect (Table 2)

                           Period        (Over)/Under       (Underpaid)           Total         Federal
                                           Reported          / Overpaid                         Share of
                                           Premium             Refund                            Total
        Insurer #2      2005–2006           $4,931,303                   $0
        Insurer #4      2004–2005              113,459                    0
        Insurer #4      2006–2007              189,957                    0
        Insurer #4      2003–2004            (466,692)                    0
                                                            Total                         $0             $0




1
 The overpayment acted as a credit to what Insurer #5 owed FHKC. Therefore, it is shown as a negative number to
demonstrate how the net underpaid refund total is determined.
                                                                                                        Page 1 of 4


                     APPENDIX D: AUDITEE COMMENTS 




                                FLORIDA                        ~
                                MEDICAID '
      RICK scon                  Better Health Care for all Floridians
                                                                                ELIZABETH DUOEK
      GOVERNOR                                                                     SECRETARY




                                               May 3, 2011



Mr. Peter J. Barbera
Regional Inspector General
for Audit Services
Office of Audit Services, Region IV
61 Forsyth Street, SW, Suite 3T41
Atlanta , GA 30303

Re: Report Number A-04-1 0-06123

Dear Mr. Barbera:

Thank you for the opportunity to respond to the Office of Inspector General's draft report,
Review of Florida 's Children 's Health Insurance Program Experience Adjustment and Refund
Submission Reports. We would like to take this opportunity to respond to the findings and
address your recommendations.

Enclosed is Florida Healthy Kids Corporation's (FHKC) response. The Agency for Health Care
Administration (Agency) concurs with FHKC's findings and comments. It should be noted that
FHKC started including medical loss ratio requirements in their health plan contracts in 1999
and has recouped over $26 million . As FHKC pOints out in their response , there are no federal
regulations requiring states to implement medical loss ratios in their health plan contracts and
no federal definition of medical loss ratio, also referred to as experience adjustments.

Two recommendations for the Agency were included in the Report. The following shows each
recommendation and the Agency's response.

        Credit the Federal Government $2,030,015 for its share of underpaid refunds.
        FHKC has reimbursed the Agency $2,005,219. FHKC is expecting repayment from the
        last two health plans , and then FHKC will reimburse the remaining federal share of
        $24 ,796. FHKC expects repayment soon , and the Agency will monitor FH KC's
        reimbursement compliance.

    • 	 Develop and implement oversight procedures to ensure that FHKC recoups
        required refunds and reconciles experience adjustment reports to accounting
        records and supporting documents.
        FHKC and the Agency are developing improved procedures for monitoring the
        experience adjustment process to ensure appropriate reporting , documentation and
        reimbursement.



2727 Mahan Driv e , MS# 8                                                     Visit AHCA online at
Tallahassee , Flo rida 32 308                                                AH CA. MyFI 0 rid a. com
                                                                                           Page 2 of 4




Mr. Peter Barbera
May 5, 2011
Page Two


Thank you for the opportunity to respond to this draft audit report. Should you have any
questions regarding our response, please contact Gail Hansen, Program Administrator, at
(850) 412-4195.




                                           Roberta K. Bradford
                                           Deputy Secretary for Medicaid

RKB/gh
Enclosure
                                                                                                         Page 3 of 4




Heatttylgds Corporation                                                               66 1 East Jefferson Street
                                                                                                       2nd Floor
                                                                                    TaUchessee, Florida 32301
                                                                                           850.224 .KIDS(5437)
                                                                                           850 .224 .0615(FAX)
  May 3, 2011

  Report Number: A-04-10-06123

  Mr. Peter Barbera 

  Office of Audit Services, Region IV 

  61 Forsyth Stree~ SW, Suite 3T41 

  Atlanta, GA 30303 


  Dear Mr. Barbera:

  Thank. you for the opportunity to provide our response to the Review ofFlorida's Children's
  Health Insurance Program Experience Adjustment and Refund Submission Reports report.

  Florida statute 624.91(b)(10) states " " .The maximum administrative cost for a Florida Healthy
  Kids Corporation contract shall be 15 percent. For health care contracts, the minimum medical
  loss ratio for a Florida Healthy Kids Contract shall be 85 percent.. ,," As with similar rate
  regulation requirements in the Florida Insurance code, the statute does not require the Florida
  Healthy Kids Corporation ("FHKC") to spend a minimum of 85% of total premiums on medieal
  services, does not define "medical loss ratio" and does not require the return of funds to the state
  if the minimum medical loss ratio is not achieved.

  In additio~ there is currently no federal definition of a medical loss ratio, no established
  minimum loss ratio and no federal requirement to collect funds from a medical or dental provider
  if the minimum medical loss ratio is not achieved for Title XXI programs.

  Initially. the minimum medical loss ratio requirements and recoveries were voluntary contractual
  provisions. In 1999 FHKC began phasing in the recovery of funds from the health and dental
  plans when the minimum medica110ss ratio was not achieved. This requirement was inserted
  into the health and dental contracts over the next few years as contracts were updated or
  contracts were rebid.

  It is important to note that though $10.8 million was voluntarily paid to the Agency for Health
  Care Administration ("AHCA'') for the audit period, a total of more than $26 million has been
  voluntarily paid to AHCA since FHKC started recovering funds from its health and dental plans.
  FHKC's practice has always been to remit the state and federal portion of recoveries to AHCA.
                                                                                                   Page 4 of 4




FINDING I -Incorrect Experience Adjustment Reports - Concur
As of the time of this letter, FHKC has collected $3,070,086 of the $3,107,623 of underpayments
from the insurers aod has returned $2,005,219 of the $2,030,015 of the Federal share to AHCA.
The remaining funds should be collected from the insurers and returned to AHCA in the next 90
days.

FINDING 2 - Policies aod Procedures Did Not Require Reconciliation - Concur
FHKC had a process for accepting and accounting for the receipt of these funds and the returning
of the funds to different funding sources. The process, however, was not formalized.

As ofFebruary 2010, FHKC bss established detailed policies and procedures to reconcile the
medical loss ratio reports received from its health insurers to address both of these findings.

Healthy Kids is proud to have initiated this practice and of the amount of funds that we have
been able to return to the state and federal government to help insure more children. We
appreciate the opportunity that this audit afforded us to review and improve our procedures in
order to become even better financial stewards of the Children's Health Insurance Program
funds. New procedures have been implemented to address the weaknesses noted in the report and
FHKC intends to collect the remaining funds identified herein in the next 90 days.




Executive Director
